              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Security Over Personally Identifiable
Information




DOE/IG-0771                                 July 2007
                             Department of Energy
                                 'Sv'ashinyton, DC 20585


                                  J u l y 30, 2007



MEMORAhTDUM FOR

FROM:
                         inspector General
SUBJECT:                 INFORMATION: Audit Report on "Security over Personally
                         Identifiable Information"



Industry experts have reported that more than 100 million personal privacy records have
been lost or stolen over the past two years, including information maintained by
corporations, educational institutions, and Federal government agencies. In fact, over the
past several years, the Department of Energy has experienced the loss of personal privacy
records. On June 23,2006, in response to security incidents involving the loss or
compromise of sensitive personal information by several Federal agencies, the Office of
Management and Budget (OMB) issued a memorandum recommending that agencies
strengthen controls over the protection of Personally Identifiable Information (PII).
OMB specifically required agencies to implement protections over PI1 developed by the
National Institute of Standards and Technology (NIST), including those related to
encryption, remote access, and risk assessments.

The Department of Energy maintains numerous information systems that contain PII. In
response to a request from OMB, the Office of Inspector General, in coordination with
the President's Council on Integrity and Efficiency, performed a review of the
Department's controls over the protection of PII. The results of our preliminary review
were provided to the Department on September 20, 2006, in our Special Report on the
Department's Security over Personally Identzfiable Information (OAS-L-06-20).
Although the September 2006 report disclosed certain actions taken by the Department to
safeguard PII, we expanded our review to determine whether the Department had
effectively implemented safeguards for protection of PII.

RESULTS OF AUDIT

We found that the Department had not fully implemented all protective measures
recommended by OMB and required by NIST. In particular, we observed that:
         Seven of eleven field sites reviewed (3 Federal, 8 contractor) had not identified
         information systems containing PII, or fully evaluated the risks of exposing PI1
         stored in such systems;




                               a9    Printed with soy ink   011   recycled paper
         Controls for securing remote access to site-level systems containing personal
         information had not been fully implemented; and,

         Five sites had not identified mobile computing devices containing PI1 nor
         ensured that this information was encrypted as required by OMB.

We noted that not all OMB and NIST requirements had been incorporated in relevant
Headquarters and site-specific policy documents. Even when policics were clear,
programs and sites did not always enforce the requirements to ensure that all necessary
controls were in place for protecting PII. Without improvements in policy deveIopment
and implementation, the Department will have a difficult time securing personal
information. In addition, there is a less-than-acceptable risk that affected individuals
would not be notified if their personal infonnation is exposed.

During our review, we recognized that the sheer volume of data processed within the
Department of Energy complex made the protection of PI1 a significant challenge. We
noted, as well, that the Department had taken positive steps to protect PII, including
conducting internal reviews to detemiine whether adequate information protection
safeguards were in place, and implementing additional controls for safeguarding PII. For
exaniple, a review conducted by the Office of the Chief Financial Officer at Headquarters
identified a number of activities that have been or will be taken to meet security
requirements. In addition, in March 2007, the Office of the Chief Infonnation Officer
and the Office of Management issued additional guidance reemphasizing user
responsibilities for keeping laptop computers and the infonnation they process more
secure. Further, the Office of Science completed its updated Program Cyber Security
Plan, the first such Department of Energy office to do so. Taken together, these actions
will improve the Department's protection of personal information. Nonetheless, more
remains to be done and we made several recommendations designed to improve security
over PI1 maintained by the Department.

MANAGEMENT REACTION

Management concurred with the report's findings and recommendations. Management
indicated that additional steps will be taken relative to our recommendations and believed
that it is iniportant that protection of sensitive information, including PII, be achieved as
an integral part of the Department's cyber security program. In separate comments, the
NNSA generally agreed with the report and indicated that a series of actions had been
implemented to address our concerns. Management's comments are included in
Appendix 3.

Attachment

cc: Deputy Secretary
    Acting Administrator, National Nuclear Security Administration
    Acting Under Secretary for Energy
    Under Secretary for Science
    Chief of Staff
REPORT ON SECURITY OVER PERSONALLY IDENTIFIABLE
INFORMATION


TABLE OF
CONTENTS

              Personal Information Protection

              Details of Finding ................................................................... 1

              Recommendations .................................................................. 6

              Comments .............................................................................. 7


              Appendices

              I . Objective, Scope, and Methodology ................................. .8

              2. Prior Repol-ts .................................................................... 10

              3. Management Comments .................................................. 12
Personal Information Protection

Protection of             Protection of Personally Identifiable Information (PI]) is a
Personally Identifiable   priority for both Federal and comn~ercialorganizations.
Information               Because of the significance of this issue, the Office of
                          Inspector General performed reviews of protection
                          measures over PI1 at Department of Energy (Department)
                          Headquarters, seven national laboratories. and four other
                          major Department sites.

                          As a result of our review, we determined that the
                          Department had not implemented all protective measures
                          recommended by the Office of Management and Budget
                          (OMB) and required by the National Institute of Standards
                          and Technology (lVIST). Specifically, the Department had
                          not identified all site-level systems containing PI1 or
                          evaluated the risks associated with maintaining such
                          systems; remote access protection measures had not been
                          fully deployed in accordance with Departmental direction;
                          and, sites had not identified mobile computing devices
                          containing PI1 nor ensured that such information was
                          encrypted.

                                               Site-Level Systems

                          Seven of eleven field sites reviewed had not identified
                          which site-level information systems contained PII. For
                          instance, although the Pacific Northwest National
                          Laboratory (PNNI,) developed a list of certain systems
                          believed to contain PII, such as the human resource system,
                          the site had not finished reviewing all systems to verify
                          whether they contained PI1 and whether the information
                          was adequately protected. Similarly. officials at the Los
                          Alamos National Laboratory (LANL) noted that, while they
                          had identified all systems managed by the Information
                          Systems and Technology Division that contained PII, there
                          were a number of systems managed by other program areas
                          at the laboratory that may contain personal information that
                          had not been specifically identified or evaluated. We also
                          found that although the Oak Ridge National Laboratory
                          (ORNL) had begun to complete an inventory of all devices
                          that contained PII, it had not conducted a review to identify
                          all site-level systems that contained such information. In
                          addition, the National Energy Technology Laboratory
                          (NETL) had not identified its systems that contained PII,
                          limiting its ability to ensure that data was protected at the
                          appropriate levels.




Page 1                                                           Details of Finding
                                                           Risk Assessments

                                   Although NIST requires that databases containing PI1 be
                                   assessed for risk of improper exposure, seven sites and
                                   programs we reviewed had not evaluated or updated
                                   security plans to address the risks associated with
                                   maintaining PII. For instance, six systems maintained by a
                                   facility contractor at the Hanford Site were inappropriately
                                   protected at a low level of controls even though they
                                   contained PII. In addition, Headquarters officials from
                                   both the Office of the Chief Information Officer (OCIO)
                                   and the National Nuclear Security Administration (NNSA)
                                   commented that their respective organizations had not
                                   reviewed and updated risk assessments to ensure that
                                   protection of PI1 was appropriate. According to the NNSA
                                   official responsible for cyber security at Headquarters at the
                                   time of our review, a list of systems containing PI1 had not
                                   been developed by the program. As noted in our recent
                                   report on Cert~ficationand Accredittrtion of Unclussijied
                                   Itformation S)~stems(DOEIIG-0752, January 2007), the
                                   failure to conduct risk assessments limits the ability to
                                   analyze the nature and level of threats and vulnerabilities to
                                   a system.

                                                         Remote Access to PI1

                                   The Department had not fully implemented controls
                                   necessary to protect PI1 during remote access. In
                                   particular, two-factor authentication' or adequate Virtual
                                   Private Network ( ~ ~ ~ ) " i m e - o ufor
                                                                           t s remote access to
                                   systems were not always implemented, and controls over
                                   information downloads had not been instituted - all
                                   necessary for ensuring secure remote access to infornlation
                                   systems. Specifically, we found that Lawrence Berkeley
                                   National Laboratory (LBNL) and ORNL had not
                                   implemented the use of two-factor authentication for
                                   accessing all systems from a remote location even though
                                   many of these systems contained PII. Timeout functions -
                                   a period of inactivity after which a connection
                                   auton~aticallyterminates - for VPN remote sessions was 90
                                   minutes at LBNL, three times the OMB recommendation of
                                   30 minutes. Access to development systems at LBNL

' Two-factor authentication requires two independent ways to establish identity and privileges, such as
both a physical device and a password, ~vhiletraditional password authentication only requires knowledge
of a password to gain access to a system.
  A VPN is a communications network that provides secure private conmmunications over a non-private
network.

Page 2                                                                           Details of Findiqg
         which may contain PI1 also did not have remote access
         time-out functions activated. Furthermore, requirements
         for controlling downloads of PlI to remote systems had not
         always been established at the sites reviewed. For instance,
         ORNL had not placed restrictions on the type of
         information that could be downloaded to remote computers.
         In addition, none of the programs or sites we evaluated
         logged and followed up on downloads of PI1 from systems,
         as recommended by OMB.

                               Encryption of PI1

         Although required by OMB, five of the sites we reviewed
         had not ensured that PI1 on all mobile devices was
         identified and encrypted. For instance, although Sandia
         National Laboratories developed policy for protecting PII,
         it had only begun the process of identifying PI1 on
         manager's laptops, which accounted for only about 1 1
         percent of the more than I 1,000 laptop computers needed
         to be reviewed at the site. We also found that LANL had
         started encrypting laptops if they knew they were going to
         be removed from the site, but had not encrypted the
         approximately 6,300 laptops not anticipated to be taken off-
         site. As noted in a recent Government Accountability
         Office report, encrypting data on mobile devices provides
         reasonable assurance that stolen or lost computer
         equipment will not result in personal data being
         compromised.

         In addition, site officials had not taken affirmative action to
         ensure that encryption capabilities were utilized, where
         appropriate. For instance, at the time of our review, ORNL
         was not aware of the number of laptop cotnputers that
         contained personal information and had not ensured that
         encryption capabilities were installed on all mobile devices.
         Although laboratory officials provided and made the use of
         encryption software optional, officials commented that they
         had no intention of mandating encryption until fornlally
         directed to do so via their contract. ORNL also had not
         received confirmation from users that PI1 was encrypted if
         it was maintained on a mobile device. In addition, neither
         Lawrence Livermore National Laboratory (LLNL) nor
         NETL had evaluated or received confirmation from users
         as to whether mobile devices contained PII, and had not
         ensured that encryption was utilized on all laptops.
         Further, most of the sites reviewed had not performed spot
         checks to verify user responses or ensure that appropriate


Page 3                                             Details of Finding
                      protections had been implemented. Absent knowledge of
                      where 1'11 is maintained and the deployment of encryption
                      software to secure such data, the Department can not ensure
                      that personal information is adequately protected.

Security Policy and   These probleills occurred because policies at Headquarters
Program Direction     and sites reviewed did not address all OMB and NIS'17
                      requirements. Even when policy had been developed,
                      programs and sites had not always enforced requirements to
                      ensure that all necessary controls were in place for
                      protecting PII.

                                                 Policies

                      To their crcdit, various Department program elements and
                      sites had developed policies and procedures for protecting
                      PII. For instance, the OCIO issued Department-level
                      guidance in July 2006 establishing requirements for the
                      protection of PI1 in all Federal and contractor-operated
                      information systems. In addition, organizations controlled
                      by each of the Department's Under Secretaries have issued
                      separate and complementary guidance designed to ensure
                      that protective measures are implemented. For example,
                      the Office of Science was one of the first Ilepartment
                      programs to issue policy for protecting PI1 that applied to
                      both Federal and contractor employees. However, the new
                      Headquarters guidance was incomplete and the existing
                      site-level policies had not been updated to reflect new
                      requirements.

                      In particular, policies developed at Headquarters for
                      protecting PI1 lacked certain critical elements. Specifically,
                      the policies, including those issued by the OCIO, did not
                      require the identification of all Headquarters or site-level
                      systems containing PI1 that were maintained by both
                      Federal and contractor officials as required by NiST.
                      Although programs began to gather this information based
                      on previously issued guidancc, the effort remained
                      incomplete. The policy also did not specifically require
                      that relevant risk assessments be reviewed and updated. as
                      necessary, to account for the protection of such
                      information. Certain policies developed by Headquarters
                      also did not explicitly address rules for downloading
                      information. including whether or not it was permitted. or
                      for utilizing personal computers for telecommuting -
                      practices which could expose PI1 to unauthorized
                      individuals outside of the workplace.


Page 4                                                        Details of Finding
         Sites had also not updated existing local policies to ensure
         protection of PI1 in accordance with OMB and NIST
         requirements. For exanlple, at the time of our review,
         neither LBNL nor ORNL had updated policies to address
         requirements for protecting PII. Officials at ORNL
         commented that they did not anticipate developing such
         policy and having it fully implemented until Fiscal Year
         2008. Although LRNL established a policy in March 2007,
         we found that the policy was incomplete and that the lab
         had not implemented Science program policy for all aspects
         of protecting personal information, such as the use of two-
         factor authentication for remote access to all systen~s.In
         addition, although certain contractors at the klanford Site
         had maintained existing policies for protecting sensitive
         information, the policies did not specifically address, and
         were less stringent than, guidance set forth by OMB and
         NIST. Such policies did not require that PI1 be encrypted
         during storage or transmission, or that risk assessments be
         updated to reflect the protection of PII. PIVNL's policies
         did not prohibit individuals from taking unencrypted
         laptops off-site and did not require that emails containing
         PI1 be encrypted. To its credit, PNNL took steps during
         our review to begin encrypting all laptops, culminating in
         the issuance of updated policy in March 2007.

                              Program Direction

         Even when policies had been developed, programs and
         sites reviewed had not consistently or effectively enforced
         controls designed to protect PII. Officials, at various sites,
         stated that their respective programs had not been provided
         with adequate or timely guidance and therefore, they had
         taken independent action that they deemed appropriate, or
         delayed taking action altogether. For instance, at the time
         of our review, officials from several sites, including LANL
         and the Richland Operations Office, stated that although
         they had received general guidance from their respective
         programs regarding the requirements for protecting PII,
         specific requirements had not been provided. As such, the
         sites were unaware of the process for protecting PI1
         consistent with Departmental requirements. Facility
         contractor officials at ORNL and the Hanford Site also
         commented that their compliance was not mandatory
         because the requirements for protecting PI1 had not been
         incorporated into their contracts. However, subsequent to
         our review, direction was provided to ORNL from the
         Department requiring protection of personal information on


Page 5                                           Details of Finding
                       mobile devices. Although most sites attempted to comply
                       with OMB's recommendations for protecting PII, some
                       sites downplayed its importance. For example, a cyber
                       security presentation provided to us by one site indicated
                       that the requirements surrounding PI1 were overly
                       burdensome and should not be considered a high priority.

Information Security   Until protective measures are fully implemented, the
and Assurance          Department may have difficulty protecting personal
                       information. Specifically, sites cannot implement the
                       necessary security measures until they identify which
                       systems contain PII. In addition, personal information
                       stored on a lost or stolen mobile computing device is at
                       increased risk of being obtained and misused by nefarious
                       individuals because sites have not fully utilized encryption
                       software. Furthermore, sites' failure to determine whether
                       devices contain PI1 will likely mean that affected
                       individuals would not be notified if personal information
                       was exposed, thus making it impossible for them to take
                       timely action to minimize possible negative effects. The
                       need to know the location of PI1 was highlighted in an
                       October 2006 Congressional report on Agencj9Data
                       Breuches Since Jarzuary 1, 2003, which disclosed that the
                       failure of agencies to track,all possible losses of personal
                       information makes it difficult to know what data was lost or
                       how many individuals were impacted.


RECOMMENDATIONS        To address the issues identified in this report, we
                       recommend that the Acting Administrator, NNSA, the
                       Acting Under Secretary for Energy, and the Under
                       Secretary for Science; in coordination with the Department
                       and NNSA Chief Information Officers:

                           1. Update Departmental and site-level policies for
                              protecting PI1 to include applicable OMB and IVIST
                              requirements;

                          2. Implement OMB and NIST requirements for
                             protecting PI1 on systems, to include updating risk
                             assessments and executing adequate remote access
                             procedures; and,

                          3. Verify that PI1 on mobile computing devices is
                             identified and adequately protected by performing
                             random checks to ensure data is encrypted.



Page 6                                                      Recommendations
MANAGEMENT   Management concurred with the report's findings
REACTION     and recommendations and indicated that steps will be taken
             to further enhance the security of PII. Specifically, the
             Department plans to update existing policies and cyber
             security plans to provide sufficient protection of sensitive
             information. In addition, the OCIO plans to monitor the
             progress of the Department in verifying that PI1 on mobile
             computing devices is identified and adequately protected.

             The NNSA generally agreed with the report and indicated
             that a series of actions had been implemented at each of its
             sites to address the issues identified in our report. NNSA
             disagreed with our recommendation to identify PI1
             contained on nob bile devices, but indicated that it had
             adopted a more conservative approach and assumed that all
             mobile devices contained PI1 and protected them
             accordingly.


AUDITOR      Management's comments are responsive to our
COMMENTS     recommendations. Management's comments are included
             in their entirety in Appendix 3.




Page 7                                                     Comments
Appendix 1

OBJECTIVE     To determine whether the Department of Energy (Department)
              had effectively implemented safeguards for protection of
              personally idcntifiable information.


SCOPE         The audit was performed between June 2006 and April 2007 at
              Department Headquarters in Washington, District of Columbia
              and Germantown, Maryland; the Lawrence Livermore National
              Laboratory, Livennore, California; the Lawrence Berkeley
              National Laboratory, Berkeley, California; the Oak Ridge
              Office, the Oak Ridge National Laboratory, and the Y-12
              National Security Complex, Oak Ridge, Tennessee; the Sandia
              National Laboratories and National Nuclear Security
              Administration Service Center, Albuquerque, New Mexico; the
              Los Alamos National Laboratory, Los Alamos, New Mexico;
              and the National Energy Technology Laboratory, Pittsburgh,
              Pennsylvania and Morgantown, West Virginia. We also
              obtained information from the Richland Operations Office, the
              Office of River Protection and the Pacific Northwest National
              Laboratory, Richland, Washington.


METHODOLOGY   To accomplish our audit objective, we:

                     Reviewed Federal regulations and Departmental
                     directives and guidance pertaining to protecting
                     personally identifiable infonnation;

                     Reviewed prior reports issued by the Office of
                     Inspector General;

                     Reviewed program and site level policies relevant to
                     protecting personally identifiable information;

                     Held discussions with program officials from
                     Department Headquarters and sites rcvicwed, including
                     representatives from the Office of the Chief
                     Information Officer, the Offices of the Chief Financial
                     Officer, Human Capital Management, Environmental
                     Management, Science, and Fossil Energy, as well as the
                     NNSA; and,

                     Analyzed infonnation provided by the organizations
                     reviewed to determine compliance with OMB
                     memorandum M-06- 16, Protectiorl of Sensitive Agency
                     Information.


Page 8                           Objective, Scope, and Methodology
Appendix 1 (continued)

                    The audit was conducted in accordance with generally accepted
                    Government auditing standards for performance audits and
                    included tests of internal controls and compliance with laws
                    and regulations to the extent necessary to satisfy the audit
                    objective. Accordingly, we assessed internal controls
                    regarding the safeguards of personally identitiable information
                    across the Department. Because our review was limited, it
                    would not necessarily have disclosed all internal control
                    deficiencies that may have existed at the time of our audit. We
                    also assessed perfomlance measures in accordance with the
                    Gover-nmerzt Performunce atzril Results Act of 1993 relevant to
                    safeguards over P11. Although we did not identify measures
                    specific to protecting PII, we noted that limited measures did
                    exist related to cyber security. We did not rely on computer-
                    processed data to satisfy our audit objective. Both the
                    Department and NNSA waived the exit conference.




Page 9                                 Objective, Scope, and Methodology
Appendix 2

                                   PRIOR REPORTS


  Mutzugement Chulletzges at the Depurtment of Energy (DOEIIG-0748, December 2006).
  The Office of Inspector General (OIG) identified seven significant management
  challenges facing the Department of Energy (Department), including cyber security. In
  addition, the OlG identified a "watch list" of emerging issues that warrant continued
  attention. The report noted that although the Department had taken a number of positive
  steps in Fiscal Year 2006 relevant to cyber security, weaknesses still existed relating to
  logical access, establishing a complex-wide inventory of information systems, and
  implementation of an effective certification and accreditation process.

  Special Report on The Depar-ttnent's Securit.~over Personrllly Identlficlble Itformatiotz
  (OAS-L-06-20, September 2006). Department and site policies for protecting personally
  identifiable information (PII) were missing certain key components and implementation
  was incomplete. Specifically, while each of the policies reviewed prescribed controls for
  transporting PII, requirements established by the National Institute of Standards and
  Technology (NlST) were not always met. Additionally, the Department had not
  implemented all protective measure recommended by Office of Management and Budget
  and required by NlST.

  Itzternal Controls for Excessing and Srlrplusing UnclusszJied Cotnputers at Los Alamos
  Nutionul Luhor~ltot?l(DOEIIG-0734, July 2006). The Los Alamos National Laboratory
  (LANL) had not complied with internal controls, implemented by both the site and the
  Department, when excessing and surplusing computers. Specifically, LANL did not
  sanitize the hard drive of a computer prior to processing the computer as excess/surplus,
  nor was the hard drive removed prior to transferring the computer for sale at auction.
  The failures in these internal controls raised concerns as to whether other recently
  released computers were sanitized and hard drives removed prior to being sent to auction.
  Given the potential sensitivity of data residing on the Department's systems, including its
  unclassified systems, it is important that formal excessing procedures be carefully
  followed.

  Internul Controls over Personal Cotnputers at Los Alamos National Laboratory
  (DOEIIG-0656, August 2004). Weaknesses were identified that undermined confidence
  in LANL's ability to assure that computers were appropriately controlled and safeguarded
  from loss or theft; and that computers used to process and store classified information
  were controlled in accordance with existing property management and security
  requirements. Specifically, a number of classified desktop computers were not entered
  into the LANL property inventory; LANL's Office of Security Inquiries was not notified
  about a missing component of a computer system; and a listing of classified desktop and
  laptop computers was not accurate.

  Speciul Inquiry on Operations at Los Alutnos Nutiotlal Laboratory (DOEIIG-0584,
  January 2003). LANL failed to take appropriate or timely action with respect to a
  number of identified property control weaknesses. Specifically, there was inadequate or


Page 10                                                                     Prior Reports
Appendix 2 (continued)

  untimely analysis of, and inquiry into, property loss or theft and security issues; a lack of
  personal accountability for property; and, a s~~bstantialdcgree of dysfunction in the
  laboratory's communication and assignment of responsibililies for handling of property
  loss and theft concerns. LAlVL officials stated that incident reports did not indicate that
  reviews were completed as to the type of infornlation contained on stolen equipment.

  Inspection oJ'Cyber Security Stundul-ds for Sensitive Personal Informution (DOEIIG-
  053 1 , November 2001). The Department did not always meet the requirements of the
  Privacy Act of 1974, the Freedom of Information Act (FOIA), or the Computer Security
  Act of 1987. Specifically, with regards to Privacy ActIFOIA personal information, the
  Department did not have baseline criteria for protection, nor did it group this information
  with other unclassified sensitive information for protection. Additionally, individual sites
  and program offices were allowed to develop differing security measures for protection
  of Privacy ActIFOIA personal infonnation.




Page 11                                                                       Prior Reports
Appendix 3




                                        Department of Energy
                                            Washington,   DC 20585




      MEMORANDUM FOR RICKEY R. HASS
                    ASSISTANT INSPECTOR GENERAL
                      FOR FINANCIAL, TECHNOLOGY A N D
                      CORPORATE AUDITS ,_                            --
      FROM:                        T H O M A S N. PYKE, JR.
                                   CHIEF INFORMATION OFFICER
                                                              -?$!y-
      SUBJECT                      Response to Inspector General's Drafl Report, IG-34
                                   (A06TG036) (B), Security over Personally Identifiable
                                   Information

      'l'hc Department o f Energy has reviewed the Inspector General's Draft Report,
      1G-34 (AO6TG036) (B), Security over Personally ldentifiable Information, dated
      April 26, 2007.

      Thank you for the opportunity to comment on this draft report. W e fully s u p p a ~ i
      thc Inspector Gencral's efforts to ensure adequate protection o f personally
      identifiable information (PII). We appreciate recognition in the report of sevcral
      of thc positive steps tliat have been taken over the last year to iinprove the
      protcction o f persorially identifiable information. 1 a m encouraged that the rollout
      of protective measures for PI1 continues throughout the Dcpartnient.

      1 bclicvc it is important that protection o f sensitive unclassificd information,
      including P11, be achieved as an integral part of the Department's cyber security
      program. W e began o u r special emphasis on protcction o f PI1 through m y June
      30, 2006, Mcmorandu~nfor Heads of Departmental Elements in which 1
      transmitted to the Dcpartment for action OMH Memorandum M-06-16, Protection
      o f Sensitive Agency Information. W e then codified this policy guidance in more
      formal direction, issued as D O E C 1 0 Cyber Security guidance CS-38, Protection
      o f Personally ldentifiablc Infonnation, on July 20, 2006.

          7'111s guidance w a s broadened to cover sensitive unclassified inforrnation in D O E
          C 1 0 Cyber Security guidance CS-38A, Protection o f Sensitive Unclassified
                               -

          Inrorniatio~i,including Personally Identifiable Information, dated Novcnibcr
          2006. In addition, five other DOE CIO Cyber Security policy issuances arc also
          directly relevant t o protection o f PIl, consistent with O M B Memorandum M-06-
           10: CS- I, Management, Operational and Technical Controls Guidance; CS-2,
          Certification and Accreditation Guide; CS-3, Risk Management; and CS- 14,




                      -
Page 12                                                                   Management Comments
Appendix 3 (continued)




             PortablciMobile Guidance; and CS-24, Remote Access Guidance. In addition, the
             Deputy Secretary signed a Mcrnorandum for Heads of Department Elements on
             Augusl 17, 2006, Designation of Authority to Determine Whether Data on Each
             Laptop Computer is Non-Sensilive.

             T!lese DOE cyber security policy issuances covcr the first three recommendations
             o f OMB Mcniorandum M-06-16 and the processes outlined in the Security
             Checklist attachment to that ~nemorandum. We do not belicve the fourth
             rccornniendation in that nicmorandu~nprovides sufficient value in reducing risk
             relative to cost. We have expressed this concern to OMB several times and do not
             plan to nia~idatethat it he adopted in general across the DOE complex. This is
             consistent with the direction we reccived from OMB on July 10, 2006, that we
             should "look at this overall issue" and "implement on the basis of a common
             sense approach."

             RECOMMEIVDATIONS

             Recommendation 1: Updatc Departmental and site-level policies for protecting
             PI1 to include applicable OMB and NIST rcquircments.

             Management Decision:

             Concur

             The Office of the CIO and the DOE Cyher Security Working Group will ensure
             that DOE cyber security policy direction is updated to provide sufficient
             protection of sensitive unclassified information, including PII. The DOE Cyber
             Security Working Group is in the process of updating all o f the Department's
             cyber security guidance as the cyber security Technical and Managcment
             Requirements (TMR) documents required by Llepartment Ordcr 205. IA are
             created. Special attention is being given to ensuring to cnsuring that all applicable
             OMB direction and NIST guidance is integrated into thesc policy issuances. Each
             Undcr Secretary's Program Cyber Security Plan (PSCP) is required to follow
             these TMRs as thcy provide cyber security policy and implemenlation direction
             for cach Under Secretary's organization, including the field. Site implementation
             plans and policies are based on these Under Sceretary PCSPs. Thc TMRs will all
             be completed and issued no later than September 2007.

             Recommendation 2: Takc action to effectively implement OMB and NIST
             requirements for protecting PI1 on systcms, to include updating risk assessments
             and iniplemcnting adcquatc rcrnotc acccss proccdures.

             Management Decision:




P a g e 13                                                             Management Comments
Appendix 3 (continued)




            All DOE organizations, including field sites, are required to follow the Under
            Secretary PCSPs. The PCSPs follow or will follow DOE cyber security guidancc
            that requires review of risk assessments whenever a security significant change is
            made to the systenls, including changes in system security categorization levels,
            as well as guidance on controls for remote access. All DOE organizations,
            including field sites, are required to iniplenient cyber security protections as
            specified in the Under Secretary PCSPs. Special attcntion will bc givcn by the
            DOE Cyber Security Working Group as the TMRs are completed to ensure that
            direction for risk assessment and remote acccss procedures is sufficient to cnsure
            adequate protection of PII. The TMRs will all be completed and issued no later
            than Septcmher 2007.

            Recommendation 3: Verify that P11 on mobile computing devices 1s identified
            and adcquatcly protected.

            M n n a a e r ~ ~ e Decision:
                                nt

            'l'he Ot'tice of the CIO (OC10) will request that the Under Secretaries report by
            Scptcmbcr 2007 on their implementation of the Deputy Sccretary's August 17,
            2006, niemoranduni, in which they were given the authority to determine whether
            data on each laptop computer is non-sensitive. Thc requested report will include
            progress in imple~nentingDOE cyber security policies and direction for protection
            of P11.

            Field implementation to protect P11 is guided by the PCSP issued by each Under
            Sccretary. DOE Ordcr 205.1A includes a requirement that cach Under Secretary
            monitor PCSP implementation effectiveness through site assistance visits,
            program reviews, reviewing the results of lG and HSS audits, compliance
            reviews. self-assessments, analyses or performance measurement criteria, peer
            revicws. and vulnerability analyses.




Page 14                                                               Management Comments
Appendix 3 (continued)




                                                       of Energy
                                               De~artmnt
                                        k d ~ aNucb.r
                                                l     Suurity Adrnlnlmh
                                               Washington, DC 26585




          MEMORANDUM FOR                Rickey R Ham
                                        M s C a n t Inapwtor h u a l
                                          For ~ i n a n kTechnology,
                                                         .           and Corporate Audiur
          FROM:

                                          For Managamant and h h i s t m t i o n
          SUBJECT:                      Comments to Draft   ~~Infondon Security Report;
                                        Job Code A06TG036

          The National Nuclear Security Administration (NNSA) sppraciatm the opportunity to review thc
          Inspactor Ormcral'6 (10)dr& mport, "Security over PQ-consllyIdentifiable Information." We
          understand that you have wncludcd that all protective meaauns that wem rtc~mmODdedby the
          Office of Managemant and Budge have mt been fulty implemented and that you are making
          ncommmdatiom to update policiw, implement requimmcnb, and verify that infmation is
          identified and protcctsd.

          NNSA g d y apeafi with the report and, since the field work for this adit wda completed, has
          implnnentcd a series of actiow at tach of ita sites that addrceeds thc concerns raised by the [G.
          While wc beticvc that we have met the intent of the IG's recommendations (encryption installed on
          devices that contain Penonally Identifiable Infmatioa; ramoval of personal information from
          devices that arc not quippal witb encryption;d c t i o n a of oarain devices from lea*      site
          boundaries or ensuring devicar meet P c d d etaodds), wc d i s a m with the rccmmdation to
          verify chat Pasonally Identifiable Informarion is on mobile computing devices. Ratha,we believe
          that it is a more prudent count to assume that all mobile computing devicss contain Personally
          Identifiable Informationand protca thm m r d i n g to the national guidance and local directiom.
          Equally, we belisvc that indi$duals that utilize ~          ~ iseued --tinm
                                                                                    g      devices
                                                                                             t     that can be
          utilized in a havcUmobile snvironma~tare also fiscally accauatabtc for those devices as well as the
          information contained thenin should anything bsppkto thoso devices during Ihe timethat thc
          devices are ina UaveUmobila cnvironmcnI.

          Should you have any questions related to this reqmnse, p l w contact Richard Spsidcl, h e t o r .
          Policy and Internal Controls Management.

          cc:    Linda Wibanka, Chief Information OiXca
                 David Boyd, S d o f Procumnmt Executive
                 K m l Boardman, Director, Service Ccmkr




Page 15                                                                       Management Comments
                                                             1G Report No. DOEIIG-0771

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1 . What additional background information about the selection, scheduling, scope, or
    procedures of the inspection would have been helpful to the reader in understanding
    this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-I)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

               U.S. Department of Energy Office of Inspector Cieneral Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
